Allon Kedem
+1 202.942.6234 Direct
allon.kedem@arnoldporter.com

March 5, 2021

Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Wooden v. United States, No. 20-5279

Dear Mr. Harris:
The Court granted the petition for a writ of certiorari in the above-captioned case
on February 22, 2021. Under the Court’s rules, petitioner’s opening brief on the merits is
currently due April 8, 2021.
Because of scheduling conflicts created by ongoing litigation matters, the parties
jointly request an extension of time in which to file petitioner’s opening brief and the joint
appendix and an extension of time in which to file respondent’s merits brief. Pursuant to
Rule 30.4 of the Rules of this Court and subject to the Court’s approval, we propose the
following briefing schedule:
Petitioner’s Opening Brief and Joint Appendix:
Respondent’s Response Brief:

May 3, 2021
June 28, 2021

Respectfully submitted,
By /s/ Allon Kedem
Allon Kedem
Counsel of record for petitioner
CC: Counsel of Record

Arnold & Porter Kaye Scholer LLP
601 Massachusetts Ave, NW | Washington, DC 20001-3743 | www.arnoldporter.com

